No. 19-234
IN THE SUPREME COURT OF THE UNITED STATES
_________________
LIBERTARIAN NATIONAL COMMITTEE, INC., PETITIONER
v.
FEDERAL ELECTION COMMISSION
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via email and first-class mail,
postage prepaid, this 23rd day of October, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6735 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on October 23, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 23, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0234
LIBERATRIAN NATIONAL COMMITTEE, INC.
FEDERAL ELECTION COMMISSION

ALLEN DICKERSON
INSTITUTE FOR FREE SPEECH
124 SOUTH WEST STREET
SUITE 201
ALEXANDRIA, VA 22314
703-894-6800
ADICKERSON@IFS.ORG
ALAN GURA
GURA PLLC
916 PRINCE STREET
SUITE 107
ALEXANDRIA, VA 22314
703-835-9085
ALAN@GURAPLLC.COM
JACOB HUEBERT
GOLDWATER INSTITUTE
500 E. CORONADE RD.
PHOENIX, AZ 85004
602-462-5000
JHUEBERT@GOLDWATERINSTITUTE.ORG
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG

